<html>
<title> - REGARDING THE 25TH ANNIVERSARY OF DEMOCRACY IN MONGOLIA; CONCERN REGARDING PERSISTENT AND CREDIBLE REPORTS OF SYSTEMATIC, STATE- SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE IN THE PEOPLE'S REPUBLIC OF CHINA; AND RECOGNIZING THE 50TH ANNIVERSARY OF SINGAPOREAN INDEPENDENCE AND REAFFIRMING SINGAPORE'S CLOSE PARTNERSHIP WITH THE UNITED STATES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   REGARDING THE 25TH ANNIVERSARY OF DEMOCRACY IN MONGOLIA; CONCERN 
    REGARDING PERSISTENT AND CREDIBLE REPORTS OF SYSTEMATIC, STATE-
SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE 
IN THE PEOPLE'S REPUBLIC OF CHINA; AND RECOGNIZING THE 50TH ANNIVERSARY 
     OF SINGAPOREAN INDEPENDENCE AND REAFFIRMING SINGAPORE'S CLOSE 
                   PARTNERSHIP WITH THE UNITED STATES

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                H. Res. 339, H. Res. 343 and H. Res. 374

                               __________

                            JANUARY 12, 2016

                               __________

                           Serial No. 114-146

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                      
                      U.S. GOVERNMENT PUBLISHING OFFICE
98-311PDF                   WASHINGTON : 2016                      
                      
_______________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdaabda28daeb8beb9a5a8a1bde3aea2a0e3">[email&#160;protected]</a>  
                   
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 339, Expressing the sense of the House of Representatives 
  regarding the 25th anniversary of democracy in Mongolia........     2
  Amendment in the nature of a substitute to H. Res. 339 offered 
    by the Honorable Matt Salmon, a Representative in Congress 
    from the State of Arizona, and chairman, Subcommittee on Asia 
    and the Pacific..............................................     6
      Amendment to the amendment in the nature of a substitute to 
        H. Res. 339 offered by the Honorable Matt Salmon.........    10
H. Res. 343, Expressing concern regarding persistent and credible 
  reports of systematic, state-sanctioned organ harvesting from 
  non-consenting prisoners of conscience in the People's Republic 
  of China, including from large numbers of Falun Gong practition    11
  Amendment in the nature of a substitute to H. Res. 343 offered 
    by the Honorable Gerald E. Connolly, a Representative in 
    Congress from the Commonwealth of Virginia...................    17
H. Res. 374, Recognizing the 50th anniversary of Singaporean 
  independence and reaffirming Singapore's close partnership with 
  the United States..............................................    22
  Amendment in the nature of a substitute to H. Res. 374 offered 
    by the Honorable Matt Salmon.................................    26
  Amendment to the amendment in the nature of a substitute to H. 
    Res. 374 offered by the Honorable Brad Sherman, a 
    Representative in Congress from the State of California......    34

                                APPENDIX

Markup notice....................................................    38
Markup minutes...................................................    39
Markup summary...................................................    40



 
   REGARDING THE 25TH ANNIVERSARY OF DEMOCRACY IN MONGOLIA; CONCERN 
    REGARDING PERSISTENT AND CREDIBLE REPORTS OF SYSTEMATIC, STATE-
SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE 
IN THE PEOPLE'S REPUBLIC OF CHINA; AND RECOGNIZING THE 50TH ANNIVERSARY 
     OF SINGAPOREAN INDEPENDENCE AND REAFFIRMING SINGAPORE'S CLOSE 
                   PARTNERSHIP WITH THE UNITED STATES

                              ----------                              


                       TUESDAY, JANUARY 12, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:24 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order. We meet 
today pursuant to notice to mark up three bipartisan measures. 
As your offices have been notified, it is the intent of the 
Chair to consider en bloc the following items, which were 
previously provided to members and are in your folders: First, 
House Resolution 339, expressing the sense of the House of 
Representatives regarding the 25th anniversary of democracy in 
Mongolia; the Salmon amendment 104 in the nature of a 
substitute to H. Res. 339; and the Salmon second degree 
amendment 105 to amendment 104.
    We also have House Resolution 343, expressing concern 
regarding persistent and credible reports of systematic state-
sanctioned organ harvesting from non-consenting prisoners of 
conscience in the People's Republic of China, including from 
large numbers of Falun Gong practitioners and members of other 
religious and ethnic minority groups. With that, we will be 
voting on the Connolly amendment No. 66 in the nature of a 
substitute to H. Res. 343.
    And, finally, House Resolution 374, recognizing the 50th 
anniversary of the Singaporean independence and reaffirming 
Singapore's close partnership with the United States. And, with 
that, Salmon amendment 103 in the nature of a substitute to H. 
Res. 374.
    And, without objection, these items are considered as read 
and will be considered en bloc.
    [The information referred to follows:]<greek-l>H. Res. 
339 deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Salmon. I now recognize members to speak on these items 
beginning with myself and the ranking member.
    Today we consider three resolutions: Resolution 339, on 
Mongolia's 25 years of democracy; Resolution 343, on the 
People's Republic of China state-sanctioned organ harvesting; 
and Resolution 374, reaffirming Singapore's partnership with 
the United States.
    First, we turn to H. Res. 339, sponsored by Representative 
Joe Pitts from Pennsylvania. This resolution recognizes 
Mongolia's success as a young democracy and free market system 
which has emerged from the fall of the Soviet Union. Mongolia 
evolved from a one-party Communist state to a democracy upon 
the introduction of its Constitution in 1992. Since then, 
Mongolia has held six Presidential and parliamentary elections, 
each deemed generally free and fair by the State Department. 
The United States strongly supports democracy promotion around 
the Globe and will continue to work with Mongolia to promote 
peace, stability, and other good things in the region.
    This legislation encourages the U.S. Government to expand 
academic, cultural, and people-to-people partnerships with 
Mongolia to ensure this beacon of democracy in Asia endures.
    I offer an amendment in the nature of a substitute that 
gives the recognition to Mongolia's open government initiative 
and substantial U.N. peacekeeping efforts.
    I have an additional amendment to offer that recognizes 
Mongolia's eligibility for the Millennium Challenge Corporation 
Fiscal Year 2015 compact assistance.
    I urge my colleagues to support both of these amendments 
and the underlying resolution.
    Next, I would like to express my support for the 
consideration of H. Res. 343, condemning Chinese state-
sanctioned forced organ harvesting. This legislation, sponsored 
by our colleague Representative Ileana Ros-Lehtinen of Florida, 
has the support of 152 cosponsors. Reports allege that tens of 
thousands of Chinese detainees, largely associated with the 
Falun Gong, fell victim to nonconsensual organ harvesting while 
still alive. H. Res. 343 encourages China to end the practice 
of organ harvesting from prisoners of conscience and calls on 
the Department of State to provide an analysis of these 
activities.
    Representative Gerry Connolly from Virginia will offer an 
amendment in the nature of a substitute that provides further 
information on the practice of organ harvesting in China, and I 
encourage my colleagues to support this measure as well.
    Finally, we consider H. Res. 374, which reaffirms the 
United States' important economic and security partnership with 
Singapore. I would like to recognize and welcome the attendance 
of Mr. Denny Heck of Washington. Mr. Heck, along with Mr. 
Bradley Byrne of Alabama, introduced this resolution and are 
the co-chairs of the Congressional Singapore Caucus.
    Since the Republic of Singapore gained independence in 
1965, this city-state has been a critical regional partner of 
the United States. The United States-Singapore economic 
relationship has been vibrant, especially since the U.S.-
Singapore Free Trade Agreement was signed in 2004, the first 
bilateral trade agreement between the United States and an 
Asian country.
    In 2014, Singapore was the United States' 18th largest 
trading partner, and we are pleased that Singapore is part of 
the 12-nation Trans-Pacific Partnership Agreement. The United 
States welcomes it broadening military partnership with 
Singapore based on the 1990 memorandum of understanding for a 
continued security presence and the 2015 defense cooperation 
agreement. This resolution also underscores Singapore's 
commitment to peaceful resolution of disputes, such as those in 
the South China Sea. As the United States works to implement 
the rebalance to Asia, Singapore will undoubtedly play an 
incredibly important partner in that process.
    Given the storied history of the United States-Singapore 
relationship, it is important to recognize this relationship, 
especially on the 50th anniversary of bilateral diplomatic 
relations.
    I offer an amendment in the nature of a substitute that 
reflects additional U.S.-Singapore cooperative efforts. In the 
face of a deteriorating security environment in Asia-Pacific, 
reaffirming this partnership is critical. This resolution is an 
important part of this affirmation. I encourage my colleagues 
to support the measure.
    These measures will be considered en bloc, and I urge the 
subcommittee's support for all three measures.
    I now recognize the ranking member for his comment on 
today's procedures.
    Mr. Sherman. Thank you, Mr. Chairman. Thank you for the 
bipartisan approach you are taking.
    There are two, I think, noncontroversial--completely 
noncontroversial--bills. The first deals with Mongolia. I will, 
of course, support the bill and your amendment to it as well. 
Democracy has been thriving in Mongolia for 25 years. This bill 
recognizes the 25th anniversary of that democracy, and 
recommends the U.S. Government expand academic, cultural, and 
other people-to-people partnerships between Mongolia and the 
United States. It advocates and urges Mongolia to further 
develop democratic institutions, promote transparency, 
accountability, and community engagement. This is a country 
with a truly amazing history, and I join you in supporting the 
bill.
    The other noncontroversial bill deals with Singapore. I 
commend Mr. Heck for being here and for offering this 
resolution. Singapore was established in its independence 50 
years ago. The country's history began in a unique way, being 
expelled from Malaysia in August 1965. After that separation, 
the fledgling nation had to become self-sufficient and faced 
problems, including mass unemployment, housing shortages, lack 
of land, and a lack of virtually all natural resources. Not 
only does this resolution commemorate the 50th anniversary of 
Singapore's independence, but it highlights the strong 
bilateral cooperation between the United States and Singapore.
    And I might add that Singapore is one of the very few 
countries in Asia where we have a trade surplus, and I look 
forward to looking at that trade relationship and seeing if we 
can replicate it with others in Asia.
    Turning to the third resolution dealing with the Falun 
Gong, China's human rights record is abysmal. Its treatment of 
religion and those who wish to practice religion is abysmal. It 
appears that Beijing simply fears anything it does not control. 
If they were providing open government in which all could 
participate, they would have far less to fear. We should 
specifically condemn China's treatment of Falun Gong members, 
who have faced perhaps more discrimination and more retribution 
and more mistreatment than any other religion in China; though, 
there are many others that could argue that they, too, are 
subject to that abuse.
    But there are parts of this resolution that do give me 
pause. In particular, the second full ``whereas'' clause on 
page 3 of the amendment in the nature of a substitute, which 
says: ``Whereas researcher and journalist Ethan Gutmann 
estimates that approximately 65,000 Falun Gong adherents''--and 
this is a strange phrase--``may have been''--and then it goes 
on to say--``killed for their organs from 2000 to 2008.'' I 
can't find anyone in the human rights community, any of the 
established human rights organizations, to lend their 
credibility to this as even a reasonable estimate.
    It also gives me pause to say that a researcher determines 
that a certain number may have been killed. The chairman points 
out that he believes that people's organs were harvested when 
they were alive. This clause talks about them being killed. I 
think this resolution would be preferable if it simply deleted 
this ``whereas'' clause, or--and I may offer this as an 
amendment in the full committee; I will not offer an amendment 
here--if we said: Okay, it is indeed true that Ethan Gutmann 
has this estimate, but others concerned with human rights, 
those who are focused on human rights in Asia and in China, do 
not subscribe to that estimate.
    Either way, I think that this resolution can be improved. 
And it is factually true that Ethan Gutmann does put out this 
estimate. But when you cite the estimate in a ``whereas'' 
clause in a resolution, you are not only making a statement of 
fact; you are citing it and giving it credibility. And I think 
that at a maximum, we should delete this. As a minimum, we 
should qualify it by indicating that others who are very 
concerned with human rights in China don't embrace this. Again, 
that would be something for the full committee and not the 
subcommittee.
    And I will yield to the chairman.
    Mr. Salmon. I am not particularly married to that 
``whereas'' clause, and if that is something that is causing 
the gentleman some concern, I would entertain a motion for that 
clause being stricken or modified.
    Mr. Sherman. I will make that motion. I will make the 
motion that we simply delete that ``whereas'' clause beginning 
with the word ``whereas'' and ending with the word ``targeted'' 
as it appears as the second full ``whereas'' clause on page 3 
of the Connolly amendment in the nature of a substitute. That 
is my motion.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Salmon. And I would be very, very supportive of that.
    Without objection, then--if there is no objection on the 
panel, then I am going to go ahead and strike that.
    Without objection, so ordered.
    Okay.
    Anything else?
    Mr. Sherman. That is it.
    Mr. Salmon. We aim to please.
    Mr. Sherman. I commend Mr. Heck.
    Mr. Salmon. We did.
    Mr. Sherman. But we didn't do it enough. You can never do 
it enough.
    Mr. Salmon. We could make it into a song.
    No, I am very, very pleased that you are here. And trying 
to observe the rules of the committee as far as speaking, but, 
Mr. Heck, this wouldn't have come to the floor, this Singapore 
resolution, without your great work, and we very, very much 
appreciate it, and thanks for being here today.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    And I rise in support of these three pieces of legislation. 
First and foremost, let us remember that Mongolia, the people 
there have been courageous in their implementation of an 
entirely new economic system at a time when they are in a 
relatively isolated area of the world. There was great hardship 
there in Mongolia while they were transitioning out of the 
Soviet economy. And it is much to the credit of the people of 
Mongolia that they were able to stick it out, and they actually 
have maintained a Democratic government and were able to move 
forward and now I think are exemplary in the way they have 
conducted their own society, again, starting way behind the 
curve 25 years ago.
    Next is Singapore, and let us note this about Singapore, 
Singapore, too, also started with much of a handicap. If you 
take a look at Singapore the people of Singapore had less land, 
fewer resources, and more people than China, and so you have 
what appears to be a country with a lot of liabilities and not 
many assets. But they have turned that country--in a 50-year 
period, Singapore has become exemplary to the world of a 
society that works.
    And it was my honor to meet President Lee in Singapore, the 
first President Lee. I haven't met his son yet, but President 
Lee was a dramatic leader who made that country work, as I say, 
with few resources, lots of people. Unlike China, they never, 
for example, went to a one-child policy, yet they established a 
country in which, because of the prosperity level of their 
people, you had basically a stable population without having to 
have the draconian and antifreedom policies that we saw in 
China, which the Chinese have just recently backed off on.
    Lastly, about our friends in the Falun Gong and China, 
talking about China, the Falun Gong, while I agree with Brad, 
with my good friend, Mr. Sherman, that, yes, maybe there isn't 
an exact reading on this, you can't get an exact reading from a 
dictatorship, from a group of gangsters. You cannot get an 
exact reading on how many people they have murdered in order to 
sell their body parts.
    Yeah, the only way we could express it is ``may,'' but we 
can say, for the record--and I put it on the record now--there 
have been many investigations into this, especially by 
parliamentarians from Canada, who I have spoken to personally, 
who went into China, documented how many prisoners, Falun Gong 
prisoners, were taken to certain prisons and how many didn't 
come out. And the fact that those very same prisons were the 
prisons in which body parts were being sold to people from the 
West and other places. So although, yeah, you can't say, ``No, 
there may be body parts being sold there,'' because they are 
not going to show you this, but when you have a dictatorship, 
this is just about as proven as it gets.
    The Falun Gong, by the way, are people who have no violent 
threat to anybody. Falun Gong are people who believe in 
meditation and yoga and are peaceful people. The fact that the 
Chinese Communist leadership still feels compelled to murder 
the Falun Gong to try to destroy it as an option for the 
Chinese people speaks a lot about the nature of the Chinese 
regime today. It is an evil regime that continues to put people 
in jail, murder them, and sell their body parts because they 
are part of a pacifist organization.
    So all of this I think we should make sure we heed in these 
three pieces of legislation.
    Thank you, Mr. Chairman, for your leadership.
    Mr. Salmon. Mr. Chabot, did you have an opening statement?
    Mr. Chabot. Yes, it is very brief, Mr. Chairman. I want to 
thank you, and I want to commend you and the ranking member for 
bringing all three of these bills before the committee today.
    And I will speak just briefly on H. Res. 343, a bill that 
expresses concern, as my colleague indicated, in regards to 
China's state-sanctioned harvesting of organs from prisoners, 
particularly members of the Falun Gong and other religious and 
ethnic minorities. And I know I have met with many Falun Gong 
practitioners from my district in past years who have brought 
me all kinds of horrific stories about what they either 
experienced themselves in China or others that they know of or 
relatives that are still there. And it is unbelievable that 
this happens in the 21st century.
    I brought similar legislation before this committee when I 
was chair, and I am pleased to see that the subcommittee is 
raising awareness of the issue by bringing this matter before 
the subcommittee again. China's organ harvesting, it is 
deplorable, and it is sad to me to think, again, that in 2016 
this heinous practice is still occurring. China continues to 
deny that organs are taken from prisoners without consent, but 
there is still no independent verification of a state-sponsored 
organ transplant system. And it is our duty as the leader of 
the free world to continue to call on China to end this 
disgraceful barbarism.
    And I yield back.
    Mr. Salmon. I thank the gentleman.
    Do any other members on the panel seek any recognition for 
opening statements?
    If not, then the question occurs on the adopting the items, 
as amended, en bloc.
    All those in favor, say aye.
    Those opposed, say no.
    In the opinion of the Chair, the ayes have it, and the en 
bloc items are approved.
    Without objection, H. Res. 339, H. Res. 343, and H. Res. 
374, as amended, will be reported favorably to the full 
committee. And the staff is directed to make any technical and 
conforming changes.
    I would like to thank all members and staff for the 
assistance and cooperation that went into today's markup, and I 
would like now to move into the hearing side of the--I am 
sorry. I will adjourn the markup, and I will go ahead and 
convene the next meaning, which is a hearing dealing with human 
rights in China, and I will allow the panelists time to take 
the dais.
    [Whereupon, at 2:44 p.m., the subcommittee was adjourned.]

                                   
                                  

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
